                                                        IG-98-005


AUDIT
REPORT
                           NASA DATA CENTER GENERAL CONTROLS
                                 JOHNSON SPACE CENTER


                                     January 29, 1998




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
 Space Administration
ADDITIONAL COPIES

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at 202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E St., SW
               Washington, D.C. 20546

NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by
calling 1-800-424-9183; 1-800-535-8134 (TDD); or by writing the NASA Inspector
General, P.O. Box 23089, L'Enfant Plaza Station, Washington, D.C. 20026. The identity of
each writer and caller can be kept confidential upon request to the extent permitted by law.




              ACRONYMS

FEIDS         Flight Equipment Interface Devices
JSC           Johnson Space Center
KSC           Kennedy Space Center
MSFC          Marshall Space Flight Center
NASA          National Aeronautics and Space Administration
OIG           Office of Inspector General
OMB           Office of Management and Budget
PCZ           Physical Control Zone
SPF           Software Production Facility
STS           Space Transportation System
UPS           Uninterruptable Power Source
USA           United Space Alliance
                                      TABLE OF CONTENTS

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBSERVATIONS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

        STRENGTHEN PHYSICAL ACCESS CONTROLS TO THE SPF . . . . . . . . . . . . . 3

        EVALUATE NEED FOR PROTECTION FROM POWER OUTAGES . . . . . . . . . . 6


APPENDIX 1 - OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . A-1-1

APPENDIX 2 - RELEVANT POLICIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-2-1

APPENDIX 3 - JSC RESPONSE, DATED JANUARY 15, 1998 . . . . . . . . . . . . . . . A-3-1

APPENDIX 4 - REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-4-1




                                                        i
             DATA CENTER GENERAL CONTROLS


BACKGROUND

                 Johnson Space Center (JSC) has several large computer facilities
                 supporting various mission operations. These facilities are:

                 •       Software Production Facility (SPF)
                 •       Shuttle Avionics and Integration Laboratory
                 •       Shuttle Mission Training Facility
                 •       Integrated Planning System
                 •       Mission Control Center

                 We limited our audit to the SPF data center. United Space Alliance
                 (USA) operates and manages the facility under the Space Flight
                 Operations Contract, NAS9-20000. USA is a joint venture of Boeing
                 Aerospace and Lockheed Martin Corporation. We selected the
                 facility because it plays a major role in the preparation of space flights
                 for the Space Shuttle Program.

                 The SPF assimilates the unique hardware and software configuration
                 requirements for each Space Transportation System (STS) flight. The
                 SPF staff develops and customizes orbiter flight software for each
                 specific space shuttle mission. After exhaustive verification, SPF
                 transmits this software to the Kennedy Space Center (KSC) for
                 loading onboard the space shuttle. The facility also generates mission-
                 specific products and reconfigures ground based software to support
                 specific flight profiles and payloads. The entire National Aeronautics
                 and Space Administration (NASA) STS program, as well as KSC,
                 Marshall Space Flight Center (MSFC), Boeing Aerospace North
                 America, and JSC, utilizes the SPF for data collection, review, and
                 approval.

                 The SPF facility consists of two Hosts, Automated Operations, Flight
                 Equipment Interface Devices (FEIDS) and a Harris Night Hawk
                 Firewall. The Hosts consist of two International Business Machines
                 plug-compatible Amdahl Central Processing Units and associated
                 standard peripheral devices. Custom built automation computer
                 hardware operates the mainframes 7 days-a-week, 24 hours-a-day.
                 The FEIDS, custom built computer hardware, check flight software


                                    1
for proper execution. The firewall monitors and controls traffic
between the network and the subnets. Interactive and/or batch file
transfer is authorized to and from any authorized SPF user on a
connected network. Authorized interactive SPF users are Boeing
Aerospace North America, Loral, JSC, KSC, MSFC, and USA.




                 2
OBSERVATIONS AND RECOMMENDATIONS

OVERALL EVALUATION   SPF's physical and environmental protection and comprehensive
                     operating procedures are adequate. USA has done a highly
                     commendable job of operating the SPF facility. Dedicated data center
                     personnel provide their users with baseline flight data, reconfiguration
                     software tools, and a management control structure that should
                     provide for a reliable computing environment. This report provides
                     recommendations we believe will help improve SPF management
                     controls. These recommendations address issues in the areas of
                     security and environmental control. Our audit objectives, scope, and
                     methodology are discussed in Appendix 1 of this report. Applicable
                     criteria associated with our recommendations are identified in
                     Appendix 2.

STRENGTHEN           JSC Security provides a comprehensive security program supporting
PHYSICAL ACCESS      NASA and JSC resources and programs, including the protection of
CONTROLS TO THE      personnel, information, equipment, operations and facilities. Their
                     physical security program includes controlling site entry and access to
SPF                  critical facilities and resources. Written procedures exist for
                     contractors to notify JSC Security when employees are terminated or
                     otherwise have their access revoked. Written procedures also exist to
                     ensure that the physical access control system, known as the Central
                     Security Control System, is updated in a timely manner. However,
                     these procedures are not always being followed. As a result,
                     individuals no longer needing SPF physical access may still have it.

                     Physical access to the SPF is granted to those individuals who have a
                     valid business need. In a list dated January 18, 1997, the Central
                     Security Control System identified 777 individuals with SPF access.
                     We sampled 57 individuals to validate their need for physical access.
                     Our sample identified 25 individuals who did not need physical access
                     but remained on the physical access list. Of the 25, 20 were not
                     current employees. Five were current employees but no longer
                     needed physical access.

                     The procedures state NASA contractors should notify JSC Security
                     in writing when individuals terminate or otherwise have their access
                     revoked. According to a JSC Physical Security Specialist, the
                     contractors are not always notifying JSC in a timely manner.

                                        3
                   However, in one instance noted in our testing, a contractor notified
                   JSC Security of several individuals that no longer needed SPF physical
                   access. These individuals remained on the physical access list. The
                   JSC Physical Security Specialist could not determine why the
                   individuals where not removed from the list.

                   Without following the procedures in place, the SPF is susceptible to
                   physical access by individuals who no longer require it to perform
                   their jobs. This increases the possibility of losses from intentional or
                   accidental damage, destruction, or theft of equipment and data.

RECOMMENDATION 1   The Chief, Security Branch, Center Operations Directorate, should
                   enforce existing operating procedures to ensure that contractors
                   provide timely written information regarding terminations/revocations
                   of employees with physical access to the SPF facility.

Management's       As stated in the report, procedures are in place to ensure that only
Response           individuals requiring access to the Software Production Facility (SPF)
                   be allowed to enter. Contractors are obligated to notify JSC Security
                   when an employee terminates. The access lists are reviewed
                   periodically, and if a person has not used his or her card to gain access
                   to a controlled area within the past six months, that person’s access
                   privileges are deleted. The Designated Approving Officials for each
                   of the controlled areas also perform an annual review and
                   recertification of all personnel with access privileges. This require-
                   ment is found in the JSC Security Manual, Section 8.1.8 which states:
                   ?…Contractor personnel having a local personnel or security office
                   surrender their badge to the respective authorized company
                   representative before termination. The badge is then returned to the
                   Security Division with written notification of the individual
                   employee’s termination. All other persons possessing a badge return
                   it to their JSC sponsor or directly to Security.” Paragraph 11.5.2
                   states: ?…The badge office must be notified immediately when an
                   employee with PCZ access terminates. When so notified, the
                   individual’s access to all PCZ will be deleted.”

                   There is currently no requirement in the JSC Security Manual to
                   require a contractor to notify JSC Security when a change in a work
                   assignment results in the loss of the employee’s need for access. We
                   recognized the need for this, and the JSC Security Division has been
                   working with JSC procurement officials to develop standard contract
                   clauses requiring contractors to provide notification to JSC Security
                   when an employee’s need for access to controlled areas changes. A


                                      4
                   Data Requirements Description (DRD) titled, ?Security Reporting
                   Requirements,” was drafted by the JSC Industrial Security Specialist
                   and submitted to procurement in July 1997.

                   The DRD requires, among other things: ?Provide the following
                   information...d. - Change in a cleared employee’s status and/or an
                   employee participating in special access programs such as the Mission
                   Critical Space Systems Personnel Reliability Program (PRP), NASA
                   Resource Protection (NRP) Program, and Information Technology
                   (IT/AIS) Security Program (i.e., name, marital status, citizenship,
                   death, termination of employment or clearance, different position or
                   work assignment/relocation, employee becomes a representative of a
                   foreign interest, etc.)”

                   This clause was added to Lockheed Martin Contract NAS9-19100 on
                   August 1, 1997, as modification #69. The clause is now undergoing
                   legal and procurement review and approval to become a standard
                   clause in all JSC contracts.

                   All Security personnel will be reminded to adhere to the procedures.
                   With procedures in place and actions underway to strengthen those
                   procedures, and your acceptance of those actions, we will consider
                   this recommendation closed on issuance of the final report.

Evaluation of      We have reviewed the information related to recommendation 1 and
Management's       management's response to the recommendation.              We feel
Response           management's actions are responsive to our concern. As a result, we
                   consider this recommendation closed.

RECOMMENDATION 2   The Chief, Security Branch, Center Operations Directorate, should
                   enforce existing operating procedures to ensure all
                   terminations/revocations are immediately entered into the Central
                   Security Control System.

Management's       All Security Division personnel will be reminded to adhere to the
Response           existing procedures. The JSC Security Manual states in Chapter
                   11.5.2 Terminations: ?When an individual terminates Government or
                   contractor employment, he/she is responsible for turning in his/her
                   PCZ card. NASA employees will not be allowed to clear the site until
                   their PCZ cards have been returned to the Security Division. For
                   contractor or other Government agency employees, a corporate
                   security officer or responsible agency official will retrieve the PCZ



                                     5
                    card at the same time the JSC badge is retrieved. …The badge office
                    must be notified immediately when an employee with PCZ access
                    terminates. When so notified, the individual’s access to all PCZ’s will
                    be deleted. If the employee has been terminated for cause, he/she
                    must be denied PCZ access at the same time he/she is notified of
                    termination. This will be done by notifying the Security Division of
                    the termination before notifying the employee. The building 1 security
                    receptionist will furnish the building 30 badge office a monthly list of
                    expired visit requests, which will be checked against the PCZ master
                    access list. Any person whose clearance expired will no longer be
                    allowed PCZ access.”

                    Detailed procedures on how to complete terminations in the Central
                    Security Control System (CSCS) are found in the Mission Control
                    Center Procedures and Training Manual, section 12, which is located
                    in the Building 30 Badge Office, room 1100. All Security personnel
                    will be reminded to immediately enter data into the Central Security
                    Control System.

                    With these procedures in place and reminders to employees to follow
                    them, we will consider this recommendation closed on issuance of the
                    final report.

Evaluation of       We have reviewed the information related to recommendation 2 and
Management's        management's response to the recommendation.            We feel
Response            management's action is responsive to our concern. As a result, we
                    consider this recommendation closed.

EVALUATE NEED FOR   An Uninterruptable Power Source (UPS) forms a defense strategy
PROTECTION FROM     against power problems. A UPS is a power conditioning and supply
POWER OUTAGES       system. It provides protection against short-term power outages until
                    the user can start a backup generator or shut down the computer and
                    network systems safely. It also provides for cleaner power which may
                    help reduce computer maintenance needs. The SPF is not protected
                    with a UPS. USA does not believe a UPS is required or cost-
                    justified. However, a feasibility study or a cost/benefit analysis has
                    not been conducted. Without a UPS, the SPF is vulnerable to data
                    loss during a commercial power outage. USA believes the current
                    commercial power source, Houston Lighting and Power, is reliable
                    because the SPF has never been down for long periods due to a power
                    outage. In our opinion, a UPS is a generally accepted protection
                    system. A UPS prevents information loss, reduces interruption, and
                    provides reasonable continuity of computer services should adverse


                                       6
                   events occur that would prevent normal operations. We believe a
                   UPS feasibility study and cost/benefit analysis should be conducted.

RECOMMENDATION 3   The Space Shuttle Program Office should conduct a feasibility study
                   and a cost/benefit analysis for a UPS.


Management's       The Software Production Facility is a vital Shuttle resource and we
Response           agree with the finding and intent of the recommendation. The USA
                   will perform a feasibility study and cost/benefit analysis to include a
                   summary of any power related SPF changes through the report date.
                   This will be completed by March 30, 1998.

Evaluation of      The action to be taken by USA is responsive to our concern. We will
Management's       review the contractor's feasibility study and cost/benefit analysis and,
Response           therefore, request to be included in the concurrence cycle for closure
                   of the recommendation.




                                      7
                                                                               APPENDIX 1


OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES         The objective of the audit is to determine whether an adequate internal
                   control structure has been established to provide for a reliable Software
                   Production Facility (SPF) computing environment, including:

                   C      physical and environmental protection, and
                   C      comprehensive operating procedures.

SCOPE AND          We interviewed Johnson Space Center (JSC) civil service and United
METHODOLOGY        Space Alliance (USA) contractor personnel to understand the general
                   SPF controls and procedures. We reviewed JSC and USA SPF
                   standards, policies and procedures. We toured the SPF facility and
                   reviewed records to evaluate physical security and environmental
                   conditions. We sampled physical access and authorized computer users
                   lists to evaluate security controls.

MANAGEMENT         We reviewed general operating policies, procedures, and standards for
CONROLS            the following data center areas:
REVIEWED
                   •      agency review and monitoring,
                   •      physical security,
                   •      environmental protection,
                   •      general computer operations activities,
                   •      library functions,
                   •      job scheduling,
                   •      data communications networks,
                   •      storage management,
                   •      file retention and backup/recovery procedures,
                   •      software change management, and
                   •      lights-out operations.

AUDIT FIELD WORK   We performed field work at JSC from November 1996 to July 1997.
                   We conducted the audit in accordance with generally accepted
                   government auditing standards.




                                     A-1-1
                                                                                APPENDIX 2


RELEVANT POLICIES

SECTION 4.17.3 OF   states when the Building 30 Security Badging Office is informed that
JSC CENTRAL         an individual no longer has authorized Physical Control Zone (PCZ)
SECURITY CONTROL    access, the receptionist will immediately delete all access from the
                    system and retrieve, if possible, the PCZ badge. This operating policy
SYSTEM OPERATING    applies to Recommendations 1 and 2.
PROCEDURES,
REVISION B
                    states the NASA or JSC badge is returned to the Security Division
SECTION 8.1.8 OF    when it is no longer needed... Contractor personnel having a local
JSCM 1600D, JSC     personnel or security office surrender their badge to the respective
SECURITY MANUAL     authorized company representative before termination. The badge is
                    then returned to the Security Division with written notification of the
                    individual employee's termination. This operating policy applies to
                    Recommendations 1 and 2.

SECTION 11.5.2 OF   states when an individual terminates Government or contractor
JSCM 1600D, JSC     employment, he/she is responsible for turning in his/her PCZ card...
SECURITY MANUAL     For contractor or other Government agency employees, a corporate
                    security officer or responsible agency official will retrieve the PCZ
                    card at the same time the JSC badge is retrieved. The PCZ card will
                    be protected and either delivered to the Building 30 Security Badging
                    Office or mailed to the Security Division as soon as possible. The
                    badge office must be notified immediately when an employee with
                    PCZ access terminates. When so notified, the individual's access to
                    all PCZ's will be deleted. This operating policy applies to
                    Recommendations 1 and 2.

APPENDIX III,       states agencies shall implement and maintain a program to assure
SECTION A.3 OF      adequate security is provided for all agency information collected,
OFFICE OF           processed, transmitted, stored or disseminated in general support
                    systems and major applications. Among other things, application
MANAGEMENT AND      security plans shall provide for establishing and periodically testing the
BUDGET (OMB)        capability to perform the agency function supported by the application
CIRCULAR A-130      in the event of failure of its automated support. This operation policy
                    applies to Recommendation 3.




                                     A-2-1
Section 302(f) of   states appropriate disaster recovery plans and contingency plans must
NASA Handbook       be established and maintained to prevent loss of information, minimize
2410.9A             interruption, and provide reasonable continuity of computer and
                    network services should adverse events occur that would prevent
                    normal operations. This operations policy applies to Recommendation
                    3.

GOOD BUSINESS       The OMB and NASA Handbook criteria do not specifically address
PRACTICES           an Uninterruptable Power Source (UPS) as part of adequate
                    contingency planning. However, good business practices would
                    dictate an undesirable condition exists when a UPS does not protect
                    a critical system, such as the SPF. This practice applies to
                    Recommendation 3.




                                    A-2-2
                                                                           APPENDIX 4


REPORT DISTRIBUTION LIST

National Aeronautics and Space Administration (NASA) Officials-In-Charge

Code A/Office of the Administrator
Code AD/Deputy Administrator
Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Management Assessment Division (10 copies)
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code MC/CIO Representative
Code MX/Audit Liaison

NASA Director, Field Installations

Ames Research Center
Dryden Flight Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center
Head, Goddard Institute for Space Studies
Manager, KSC VLS Resident Office (Vandenberg AFB)
Manager, Michoud Assembly Facility
Manager, NASA Management Office-JPL
Manager, JSC White Sands Test Facility

NASA Offices of Inspector General

Ames Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center

                                           A-4-1
Johnson Space Center Officials

Code AI/Chief Information Officer
Code AI/JSC Computer Security Official
Code BD/Audit Liaison Representative
Code DA/Director, Mission Operations Directorate
Code DB/Chief, Systems Development and Operations Division
Code DB/ SPF Resident Office Manager
Code JA/Director, Center Operations Directorate
Code MA/Manager, Space Shuttle Program

Chairman and ranking minority member of each of the following congressional
committees and subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA-HUD-Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA-HUD-Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics

Non-NASA Federal Organizations and Individuals:

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division, General Accounting
Office
Special Counsel, Subcommittee on National Security, International Affairs and Criminal Justice
Professional Assistant, Senate Subcommittee on Science, Technology, and Space
Professional Assistant, Subcommittee on Science, Technology, and Space c/o Tom Cooley

Congressional Members:

Honorable Pete Sessions, U.S. House of Representatives




                                             A-4-2
MAJOR CONTRIBUTORS TO THE REPORT


JOHNSON SPACE      Brenda K. Conley, Auditor-in-Charge
CENTER

NASA               Gregory B. Melson, Program Director - Information Technology
HEADQUARTERS       Audits
